                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              LOS ANGELES JCC DID NOT ENSURE BEST
                                              VALUE IN AWARDING SUB-CONTRACTS




                                                                 Date Issued:     March 31, 2011
                                                              Report Number:    26-11-001-03-370
U.S. Department of Labor                                   MARCH 2011
Office of Inspector General
Office of Audit                                            LOS ANGELES JCC DID NOT ENSURE BEST VALUE
                                                           IN AWARDING SUB-CONTRACTS

BRIEFLY…
Highlights of Report Number 26-11-001-03-370, to the
Assistant Secretary, Employment and Training               WHAT OIG FOUND
Administration (ETA).                                      LAJCC improperly awarded 7 of the 11 sub-contracts
                                                           reviewed because of non-compliance with the FAR. For
                                                           5 sub-contracts we questioned $2.3 million because the
WHY READ THE REPORT                                        center could not provide support to justify why the
This report discusses how the Los Angeles Job Corps
                                                           lowest bidders were not awarded the contract; and for 2
Center (LAJCC) did not award sub-contracts and
                                                           sub-contracts we questioned $77,858 because the
purchase orders in accordance with Federal Acquisition
                                                           related consulting positions had not been properly
Regulations (FAR) resulting in $2.5 million in
                                                           competed and advertised as required by the FAR.
questioned costs. The report also discusses process
improvements the LAJCC, ETA, and Job Corps need to
                                                           The awarding of purchase orders to vendors was also
make to ensure LAJCC’s future sub-contract and
                                                           an issue for 15 of the 95 expenditures over $3,000 we
purchase order awards comply with the FAR.
                                                           statistically selected. For eight expenditures, the center
                                                           did not adequately justify sole source procurement; and
The LAJCC is operated by the Young Women’s                 for the other seven the center improperly used a GSA
Christian Association of Greater Los Angeles (YWCA).       approved vendors list to obtain two bids and then
The YWCA’s current contract with Job Corps to operate      improperly selected a lower bid from a vendor that was
the center covers the 5-year period from May 1, 2006,      not on the list. We questioned the $72,864 in total costs
to April 30, 2011. The contract value totals               for the 15 expenditures.
approximately $88 million, including $34 million for the
base 2-year period and $18 million for each of three       This occurred because the control environment at the
option years.                                              center was inadequate to ensure compliance with FAR.
                                                           Specifically, YWCA and center management did not
                                                           establish adequate procedures and oversight to ensure
WHY OIG CONDUCTED THE AUDIT                                compliance. In addition, neither ETA contracting
Our audit objective was to answer the following            personnel nor Job Corps regional staff adequately
question:                                                  monitored LAJCC procurement activities.

Did the LAJCC award sub-contracts and claim costs in
accordance with the FAR?                                   WHAT OIG RECOMMENDED
Our audit work was conducted at the LAJCC in Los
                                                           We made six recommendations. In summary, we
Angeles, California and at the San Francisco Regional
                                                           recommended that ETA recover the $2.5 million
Office of Job Corps in San Francisco, California.
                                                           questioned because LAJCC did not comply with the
                                                           FAR, and direct the center operator and the center to
READ THE FULL REPORT                                       establish procedures, training, and oversight to ensure
To view the report, including the scope, methodology,      compliance. We also recommended that ETA and Job
and full agency response, go to:                           Corps strengthen their procedures to ensure
                                                           compliance.
http://www.oig.dol.gov/public/reports/oa/2011/26-11­
001-03-370.pdf                                             ETA agreed with our findings and accepted all our
                                                           recommendations. LAJCC responded that it
                                                           substantially complied with the FAR but fell short in
                                                           adequately documenting its compliance. LAJCC will
                                                           provide additional information to ETA to support its
                                                           compliance.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                          LAJCC Sub-Contracting
                                      Report No. 26-11-001-03-370
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report .............................................................................. 1


Objective — Did the LAJCC award sub-contracts and claim costs in accordance 

            with FAR? ................................................................................................. 4

         LAJCC Improperly Awarded Sub-Contracts Resulting In More Than $2.5 

         Million In Questioned Costs. ................................................................................. 4


         Finding 1 — LAJCC did not comply with the FAR when awarding sub­
            contracts and purchase orders........................................................................ 4


Recommendations ........................................................................................................ 12


Exhibits
         Exhibit 1 Inadequate Support for not Awarding Sub-Contracts to Lowest 

            Bidder............................................................................................................ 17

         Exhibit 2 Purchase Orders - Sole Source / GSA Non-GSA ................................ 19


Appendices
         Appendix A Background ..................................................................................... 23

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25

         Appendix C Acronyms ........................................................................................ 29

         Appendix D ETA Response to Draft Report ....................................................... 31

         Appendix E YWCA Greater Los Angeles Response to Draft Report .................. 35

         Appendix F Acknowledgements ......................................................................... 49





                                                                                                LAJCC Sub-Contracting
                                                                                            Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                          LAJCC Sub-Contracting
                                      Report No. 26-11-001-03-370
                                                     U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                           Office of Inspector General
                                                   Washington, D.C. 20210




March 31, 2011

                              Assistant Inspector General’s Report


Ms. Jane Oates
Assistant Secretary for Employment and Training
Employment and Training Administration
200 Constitution Avenue, N.W
Washington, D.C. 20210

Job Corps is a residential training program for disadvantaged youth where employability
skills are developed. Its training activities and living facilities are housed within 124
centers throughout the country. The Job Corps program is administered by the
Department of Labor’s Employment and Training Administration (ETA) per authorization
provided by the Workforce Investment Act. Within ETA, the program is managed by the
Office of Job Corps, which consists of a national office and 6 regional offices. The Job
Corps program’s budget for FY 2010 totaled about $1.7 billion.

The Los Angeles Job Corps Center (LAJCC) is operated by the Young Women’s
Christian Association of Greater Los Angeles (YWCA). The YWCA’s current contract
with Job Corps to operate the center covers the 5-year period from May 1, 2006, to
April 30, 2011. The contract value totals approximately $88 million, including $34 million
for the base 2-year period and $18 million for each of the 3 option years.

Job Corps centers are required to comply with Federal Acquisition Regulations (FAR)
when procuring goods and services and claiming costs to ensure best value is received
by the Federal Government. The FAR is applicable to Job Corps centers because the
centers use federal funds to acquire supplies or services for the use of the Federal
Government. The centers are subject to specific FAR requirements for obtaining price
quotes and competing and awarding sub-contracts. The FAR further requires the
maintenance of records to demonstrate claimed costs have been incurred.

Our audit objective was to answer the following question:

    Did the LAJCC award sub-contracts and claim costs in accordance with the FAR?

The audit covered sub-contracts managed and expenditures 1 incurred by the LAJCC
from October 1, 2009, to September 30, 2010. We examined all 11 sub-contracts,
totaling $2.4 million, managed by LAJCC during this period. This included two sub­

1
 We also reviewed expenditures associated with purchase orders and other documents procuring goods and
services, which classifies those expenditures as contracts subject to FAR requirements.

                                                                                     LAJCC Sub-Contracting
                                                       1                         Report No. 26-11-001-03-370
                                                            U.S. Department of Labor – Office of Inspector General



contracts, totaling $77,858, that were awarded during our review period and nine sub­
contracts, totaling $11.3 million, that were awarded during prior years but had option
years exercised during our review period. For the nine, we expanded our review to
include the initial award and the entire sub-contract (base and option years) in our
calculation of questioned costs. We also reviewed a statistical sample of 95
expenditures over $3,000, totaling $770,057, from a universe of 269 expenditures
totaling $1.8 million. These expenditures were generally initiated by Purchase Orders
and were separate items from the 11 sub-contracts we reviewed. The YWCA’s contract
to operate the LAJCC was not included in our review because it was awarded by ETA.
In addition, no LAJCC sub-contracts were awarded by ETA.

To address our audit objective, we reviewed criteria that were applicable to LAJCC
procurement activities as of March 2011. This included Job Corps’ Policy and
Requirements Handbook (PRH), FAR, contract provisions, and LAJCC’s standard
operating procedures (SOP). We also analyzed YWCA and Job Corps Regional Office
assessments of LAJCC operations and performed process walkthroughs with key
LAJCC and YWCA officials, as well as ETA and Job Corps regional office staff.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

LAJCC improperly awarded 7 of the 11 sub-contracts, reviewed because of non­
compliance with the FAR. For 5 sub-contracts we questioned $2.3 million because the
center could not provide support to justify why the lowest bidders were not awarded the
contract; and for 2 sub-contracts we questioned $77,858 because the related consulting
positions had not been properly competed and advertised as required by the FAR. For
example, the bid request for a temporary Master Teacher consulting position was
advertised on Craigslist 2 rather than the required federal government’s Federal
Business Opportunities (FedBizOps) website. The center awarded the contract to a
consultant already filling the position under a previous contract who competed against
two bidders that responded to the Craigslist advertisement.

The awarding of purchase orders to vendors was also an issue for 15 of the 95
expenditures over $3,000 we statistically selected. For eight expenditures, the center
did not adequately justify sole source procurement as required by the FAR. For the
other seven, the center used the GSA approved vendors list to obtain two bids and then
improperly selected a lower bid from a vendor that was not on the list. The FAR requires
that a vendor from the list be selected when the list is used to obtain bids. We
2
    Craigslist is a centralized network of online communities, featuring free online classified advertisements.

                                                                                              LAJCC Sub-Contracting
                                                               2                          Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General



questioned the $72,864 in total costs for the 15 expenditures. The $72,864 represented
9.5 percent of the $770,057 in expenditures tested. Based on our statistical sample, we
estimate that there were 29 expenditures where vendor selection did not comply with
the FAR, resulting in $124,000 in potential questioned costs.

These conditions occurred because the control environment at the center was
inadequate to ensure compliance with FAR requirements for awarding sub-contracts
and selecting vendors. Specifically, the YWCA and center management did not
establish adequate procedures and oversight to ensure compliance with the FAR. In
addition, neither ETA contracting personnel nor Job Corps regional staff adequately
monitored LAJCC procurement activities.

We recommend that the Assistant Secretary for Employment and Training recover the
approximately $2.5 million we questioned because LAJCC did not comply with the FAR
when awarding sub-contracts and selecting vendors, and direct the YWCA and the
center to establish procedures, training, and oversight to ensure compliance with the
FAR. We also recommend that ETA contract personnel and the Job Corps regional staff
review all future LAJCC sub-contracts for FAR compliance and approval prior to award.
FAR compliance should also be reviewed by the Job Corps regional office during
on-site visits conducted at the center.

In response to the draft report, the Assistant Secretary for ETA agreed with our findings
and accepted our recommendations. ETA will provide the contractor the opportunity to
provide additional information and will initiate recovery of our questioned costs as
needed. ETA and Job Corps will also strengthen their procedures to ensure all Job
Corps centers, including LAJCC, comply with FAR requirements when awarding sub­
contracts and purchase orders.

LAJCC’s response to our draft report did not address our specific recommendations.
LAJCC stated that the center substantially complied with the FAR but fell short in
adequately documenting its compliance. LAJCC provided additional information to
support its compliance. We reviewed the information and nothing the center provided
caused us to change our conclusions.




                                                                       LAJCC Sub-Contracting
                                            3                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General




RESULTS AND FINDINGS

Objective — Did the LAJCC award sub-contracts and claim costs in accordance
             with FAR?

LAJCC Improperly Awarded Sub-Contracts Resulting In More Than $2.5 Million In
Questioned Costs.

Finding 1 — LAJCC did not comply with the FAR when awarding sub-contracts
             and purchase orders.

LAJCC improperly awarded 7 of 11 sub-contracts reviewed because of non-compliance
with the FAR. For five sub-contracts, we questioned about $2.3.million because LAJCC
could not provide support to justify why the lowest bidders were not awarded the
contract and could not demonstrate that it employed FAR criteria when selecting the
winning bidder; and for two other sub-contracts we questioned $77,858 because the
related consulting positions had not been properly competed and advertised as required
by the FAR. LAJCC also did not comply with the FAR when awarding purchase orders
to vendors for 15 of the 95 expenditures over $3,000 we statistically selected. Since the
center did not adequately justify sole source procurements as required for eight
expenditures and improperly used a GSA-approved vendors list to award purchase
orders for seven expenditures, we questioned $72,864. In total, we questioned about
$2.5 million in claimed costs relating to LAJCC’s non-compliance with the FAR.

These conditions occurred because the YWCA and center management had not
established a control environment that ensured compliance with the FAR and adequate
procedures and oversight to ensure compliance were not established at the center. In
addition, neither ETA contracting personnel nor Job Corps adequately monitored
LAJCC procurement activities.

Job Corps Centers Are Required To Comply With The FAR

The FAR is applicable to Job Corps centers because they use federal funds to acquire
supplies or services for the use of the Federal Government (FAR 1.104 and 2.101).
Additionally, the YWCA’s contract to operate the LAJCC specifically states that the
center shall establish systems to procure property, services, and supplies in a cost-
efficient manner in accordance with government policies; and the contractor shall follow
Job Corps’ Policies and Requirements Handbook (PRH), the governing regulations, and
all other requirements established in the contract. The PRH, in turn, states that center
operators shall follow all applicable procurement regulations, to include those contained
in the FAR (PRH 5.6). Specific FAR requirements for centers procuring supplies or
services and claiming costs include:

   	 Developing and ensuring proposals are evaluated based solely on the factors
      and sub-factors contained in the solicitation (FAR 15.303 and 15.304).

                                                                       LAJCC Sub-Contracting
                                            4                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General



   	 Advertising bid requests for sub-contracts over $25,000 on the federal 

      government’s FedBizOps website (FAR 5.101and 5.201). 

   	 Obtaining bids from at least three sources for expenditures over $3,000 unless
      there is a documented justification for sole source procurement. Justification for
      why a lowest bidder was not awarded a contract or purchase order must also be
      documented (FAR 13.104, 6.302-2 and 15.101.2).
   	 Obtaining at least three bids from vendors listed on GSA’s approved vendors list
      and awarding the purchase order to a vendor on the list. The GSA-approved
      vendors list can be used to obtain bids for expenditures up to $25,000. Centers
      can either use the list to obtain all bids or not use the list at all (FAR 8.404).
   	 Maintaining documentation to support claimed costs have been incurred. Job
      Corps is authorized to disallow all or part of a claimed cost that is inadequately
      supported (FAR 32.905).

LAJCC’s Non-Compliance Resulted In More Than $2.5 Million In Questioned Cost

We reviewed all 11 sub-contracts, totaling $11.4 million, managed by LAJCC during
October 1, 2009, to September 30, 2010. This included two sub-contracts, totaling
$77,858, that were awarded during our review period and nine sub-contracts, totaling
$11.3 million, that were awarded during prior years but had option years exercised
during our review period. For the nine, we expanded our review to include the initial
award and the entire sub-contract (base and option years) in our calculation of
questioned costs. Additionally, we reviewed a statistical sample of 95 expenditures over
$3,000, totaling about $770,057, from a universe of 269 expenditures totaling $1.8
million.

We found that LAJCC did not consistently comply with the FAR resulting in questioned
costs totaling approximately $2.5 million. Table 1 summarizes the types of LAJCC’s
non-compliance and the number of instances and questioned costs for each type.




                                                                       LAJCC Sub-Contracting
                                           5                       Report No. 26-11-001-03-370
                                                   U.S. Department of Labor – Office of Inspector General



Table 1: Instances of FAR non-compliance resulting in questioned costs
                             Sub-contracts over        Expenditures over
             FAR
                             $25,000 / amount of $3,000 / amount of questioned
      Non-compliance
                              questioned costs                costs
      Sub-contract award
  criteria not developed and    7 of 11 (64%)             Not applicable
            employed
    Inadequate support for
                               5 of 11 (45%) /
      not selecting lowest                             Sample: 0 of 95 (0%)
                                 $2,344,738*
             bidder
      Improper Advertising           1 of 11 (9%) / $20,258              Sample: 0 of 95 (0%)
     Improper use of GSA                                               Sample: 7 of 95 (6.3%) /
                                     1 of 11 (9%) / $37,600
      approved vendor list                                                    $28,787
    Inadequate sole source                                             Sample: 8 of 95 (9.5%) /
                                           0 of 11 (0%)
          justification                                                       $44,077
           Totals                        7 of 11 (64%) /              Sample: 15 of 95 (15.8%) /
         $2,475,460                        $2,402,596                         $72,864
* These 5 sub-contracts were initially awarded in 2006 and extended through the three option years. We
included the period from the initial award to September 30, 2010, in our calculation of questioned costs.

Examples of Sub-contracts over $25,000 where FAR Non-compliance Resulted in
Questioned Costs

As noted, we questioned cost for seven sub-contracts because LAJCC did not maintain
adequate support for not awarding the contract to the lowest bidder (five times), used
the GSA-approved vendor list improperly (one time), and advertised a consulting
position improperly (one time). The following are examples of each type of non­
compliance:

    	 Inadequate support for not awarding sub-contract to lowest bidder – In 2006,
       LAJCC awarded a 5-year, $7,045,837, food services contract to Sodexho, Inc
       (Sodexho). The sub-contract included a 2-year base period and 3 option years.
       Sodexho had been LAJCC’s food services provider for the previous 20 years. In
       awarding the sub-contract, LAJCC requested bids on the FedBizOps website and
       the center received 5 bids, with Sodexho being the third lowest. The center also
       developed a food service bid rating checklist with 10 evaluation criteria. However,
       LAJCC failed to comply with the FAR by not employing the 10 criteria when
       evaluating the bids. Instead, LAJCC’s bid evaluation records cited two factors for
       eliminating the lowest bidders that were not on the bid rating checklist (costs
       appeared too low and out-of-state operations). The bid evaluation records
       indicated that Sodexho was also headquartered out-of-state and that other
       extraneous factors were considered in awarding the sub-contract to Sodexho.
       These extraneous factors included Sodexho having given money as an incentive
       to the LAJCC student’s basketball team in past basketball tournaments, and

                                                                                 LAJCC Sub-Contracting
                                                     6                       Report No. 26-11-001-03-370
                                        U.S. Department of Labor – Office of Inspector General



   Sodexho’s willingness to provide the center air conditioning units, décor
   refinements for the dining facility, a state-of-the-art meat slicer, and a restaurant
   quality toaster at no cost.

   In response to our audit, LAJCC provided us with a bid rating sheet that showed
   that Sodexho’s score was higher than the lowest bidder. However, we did not
   accept the rating sheet as support for not awarding the sub-contract to the lowest
   bidder because LAJCC acknowledged its staff created the bid rating sheet and
   calculated the scores in March 2011. As such, it was not used by the center to
   evaluate the bids prior to the sub-contract award in 2006.

   We concluded that LAJCC did not maintain adequate support for not awarding
   the sub-contract to the lowest bidder. As such, we questioned the cost difference
   between Sodexho’s accepted bid ($7,045,837) and the lowest bid ($4,961,478),
   or $2,084,359 for the 5-year sub-contract. See Exhibit 1 for details on all 5 sub­
   contracts where we questioned $2.3 million in costs due to inadequate support
   for not awarding sub-contracts to the lowest bidder.

	 Improper use of GSA-approved vendor list to award a sub-contract – In 2010,
   LAJCC awarded a $37,600 consulting services sub-contract to Above the
   Standards Procurement Group (Above the Standards) to provide procurement
   training to LAJCC staff. The consultant was already under contract with the
   YWCA to provide consulting services including evaluating LAJCC procurement
   activities. In fact, Above the Standard recommended that LAJCC be provided
   procurement training and then won the sub-contract award to provide the
   training. In awarding the sub-contract, LAJCC did not develop and employ criteria
   for evaluating the bids and did not request bids on the FedBizOps website.
   Instead, the center obtained 2 higher bids from vendors listed on the GSA-
   approved vendors list and awarded the sub-contract to the low bidder, Above the
   Standards.

   We concluded that LAJCC improperly used the GSA-approved vendor list to
   award the sub-contract to Above the Standard. The center used the list to obtain
   bids for the $37,600 sub-contract even though the FAR limits its use to
   expenditures up to $25,000. Also, the center did not award the sub-contract to a
   vendor on the list as required by the FAR. The hiring of the YWCA consultant
   recommending the training also occurred despite the clear conflict of interest. We
   questioned the entire amount of the $37,600 sub-contract due to the non­
   compliance with the FAR and the conflict of interest.

	 Improper advertising used to award sub-contract -- In 2010, LAJCC awarded a
   $20,258 sub-contract to fill a temporary Master Teacher consulting position. The
   sub-contract was awarded to a consultant already filling the position under a
   previous sub-contract. In awarding the sub-contract, LAJCC did not develop and
   employ criteria for evaluating the bids and did not request bids on the FedBizOps
   website. Instead, the center advertised the position on Craigslist. LAJCC

                                                                     LAJCC Sub-Contracting
                                          7                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General



      awarded the sub-contract to the already employed consultant who competed
      against two unqualified bidders that responded to the Craigslist advertisement.

      We concluded that improper advertising was used to award the sub-contract to
      the consultant already filling the position under a previous sub-contract. LAJCC
      did not advertise the Master Teacher consulting position on the FedBizOps
      website as required by the FAR. As such, we questioned the entire amount of the
      $20,258 sub-contract.

Examples of Expenditures Over $3,000 That Resulted In Questioned Costs

As noted, we questioned 15 of the 95 expenditures over $3,000 we statistically
selected. For 8 expenditures, the center did not adequately justify sole source
procurement as required by the FAR. For the other 7, the center used the GSA
approved vendors list to obtain 2 bids and then improperly selected a lower bid from a
vendor that was not on the GSA list. The following are examples of each type of non­
compliance:

   	 Inadequate justification for sole source -- From our sample of 95 purchase
      orders, LAJCC sole sourced 15 of 95 (16 percent) purchase orders. Eight of 15
      purchase orders, 53 percent, were not in compliance with the FAR requirement
      listed at Subpart 6.303-2. For example, Quest Diagnostics was used on four
      occasions as the sole source with LAJCC justification being that Quest was in
      close proximity to the LAJCC and was familiar with JC operations because Quest
      had the previous sub-contract. Jabez Building Services, who has the current
      building services sub-contract, was awarded sole source sub-contracts to
      perform professional deep cleaning in the student dorm rooms in preparation for
      the Regional Office Health Inspection. Also, Ergobuyer was awarded a sole
      source sub-contract to transform work stations into personalized stand work
      areas. And finally, Elsevier Publishing was awarded a sole source sub-contract
      because they provided the widest variety and most comprehensive selection of
      textbooks. None of these justifications are stated by the FAR as justification for a
      sole source.

   	 Improperly combined GSA and non-GSA bidders -- In 7 instances, LAJCC used
      the GSA approved vendors list to obtain 2 bids and then improperly selected a
      lower bid from a vendor that was not on the GSA list. The center used the GSA
      schedule to obtain bidders to complete the FAR requirement of having at least 3
      bidders for purchases above $3,000 (FAR 14,408-1(b), and 14.2040). In each
      instance, the non-GSA bidder was selected. For example, Mims Management, a
      non-GSA contractor was documented as a bidder with two GSA contractors
      (Telecom Remarketing of America and ITCN, Inc). The center selected Mims
      Management, the non-GSA bidder. Moreover, LAJCC’s request for bids did
      not describe the services that were being solicited; and the center justified
      selecting Mims Management based on price, the company was local, and had
      experience in providing the services needed.

                                                                       LAJCC Sub-Contracting
                                            8                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General




See Exhibit 2 for details on all 15 purchase orders where we questioned $72,864 in
costs due to inadequate support for sole source procurement or improperly combining
GSA approved and non-GSA bidders.

Based on our statistical sample of 95 expenditures from the universe of 269, we are 95
percent confident there were between 29 and 62 expenditures where vendor selection
did not comply with the FAR, resulting in between $123,693 and $311,523 of
questioned costs.

LAJCC Split A Purchase To Avoid Soliciting Bid Requests

LAJCC SOP #2001 and FAR requires written bids for all purchases over $3,000. Our
testing revealed LAJCC did not adhere to LAJCC’s policies and the FAR on one
occasion when the center purchased 8 sofas for $3,192 on May 13, 2010, from AMZ
Fine Furniture. LAJCC issued two checks of $1,596 each for payment. LAJCC officials
stated they did not solicit three bids, as required by the FAR and LAJCC SOP but
instead purchased the eight sofas from the vendor recommended by the requestor. As a
result, we questioned the $3,192.

LAJCC Paid Invoice For Sub-Contractor Services Occurring Prior To Sub-Contract Start
Date

LAJCC’s oversight of sub-contract invoice payments did not always ensure compliance
with FAR. Our testing of the 66 invoices for the 11 sub-contracts we reviewed disclosed
unsupported cost related to one invoice. Specifically, LAJCC overpaid an invoice for the
Above the Standards sub-contract by $2,400 for services provided June 4-26, 2010,
which was prior to the sub-contract start date of June 28, 2010. We did not question the
$2,400 because the amount was included in the $37,600 we already questioned for the
sub-contract due to non-compliance with FAR requirements for awarding the sub­
contract and conflict of interest.

LAJCC Obtained Adequate Support Prior To Payments For Purchase Orders Between
$3,000 and $25,000

We examined a statistical sample of 95 purchase orders, between $3,000 and $25,000.
Of the 95 purchase orders we looked at we found LAJCC obtained all required
supporting documents prior to payment.

FAR Non-Compliance Caused By Weak Control Environment

The conditions we identified in this report occurred because the YWCA and center
management had not established a control environment that ensured compliance with
the FAR. Adequate procedures and oversight to ensure sub-contracts and purchase
orders were awarded in accordance with the FAR were not established at the center. In



                                                                       LAJCC Sub-Contracting
                                           9                       Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General



addition, neither ETA contracting personnel nor Job Corps adequately monitored
LAJCC procurement activities.

SOP’s At LAJCC Were Inadequate

LAJCC had two SOPs that did not describe how corporate oversight would ensure sub­
contracts were awarded in accordance with FAR. In addition, SOPs were inadequate in
the areas of supervisory approval, file documentation to support best value, and
process to be followed in awarding of sub-contracts. For example, current SOPs did not
specify the documentation to be maintained in file to support best value, describe the
role of evaluators and the basis for evaluation, and require evaluators to sign evaluation
forms.

As we previously noted, for the 11 sub-contracts we reviewed, the center records did
not contain adequate documentation to support when the lowest bidder was not
selected or why the higher bidder was selected. Statements we did find in the file had
nothing to do with FAR requirements and did not justify that the selections made were in
the best interest of the government.

In addition, during interviews we were informed that the Bid Abstracts were the support
used by LAJCC for eliminating bidders and selecting the winning bidder. But the Bid
Abstracts did not include evaluation factors to be used to rate bidders, and neither the
evaluators nor supervisors signed off on the form. There were no signatures at all in the
files we examined. Lack of signatures raises doubt as to who made the final
determination and if a proper decision was made.

Corporate Assessment Did Not Identify Issues Identified By OIG Auditors

The YWCA of Greater Los Angeles conducted a Corporate Program Assessment during
the week of April 26, 2010, to provide technical assistance to center staff, follow up on
the 2007 corporate assessment, and provide guidance and suggestions on how to
utilize the new center building under construction. As part of the assessment, 72
procurement files, sub-contracts, and blanket purchase agreements were reviewed.
Sub-contract files were reviewed and found to be organized, labeled, in order, and
complete. Also the team reviewed SOPs related to procurement. The assessment team
did make recommendations to conduct self assessments in accordance with JC Policy
and Requirements Handbook Chapter 5.6 at least once a year and document areas of
improvement, and test staff on SOPs annually. In addition, the team had concerns in the
areas of providing at least 30 days lead time to the Contracting Officer for sub-contracts.
And best value needs to be implemented more in all procurement awards above $2,500
and documented.

In response to the YWCA assessment, a sub-contract was awarded to provide
procurement training. Center staff in the areas of finance, procurement, property
management, and projects and operations attended 3 days of training from



                                                                        LAJCC Sub-Contracting
                                            10                      Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General



June 29-July 1, 2010. The purpose of the training was to provide information to the staff
on best procurement practices and how to conduct an internal procurement audit.
However, based on interviews with attending staff and review of the assessment report
and training material, we determined the training did not address the procurement
weaknesses (e.g., inadequate SOPs and oversight) we identified in this report.

LAJCC Procurement Process Was Not Reviewed By The Region During Last
Assessment

During the 2009 center assessment, the Job Corps regional office did not review the
procurement process at LAJCC because procurement at LAJCC had not been raised as
an issue during the last 2 years. In addition, when the LAJCC submitted sub-contracts
to the contracting officer for approval, the contracting officer did not review the sub­
contracts to ensure they were awarded in compliance with all FAR requirements or best
value was obtained. Prior to approval of a center awarded sub-contract, the contracting
officer reviews the documents provided and signs off on a sub-contractor review
checklist. Per FAR 44.2, under the terms of cost reimbursable sub-contracts, the
contractor must request the Contracting Officer’s consent prior to entering into specified
sub-contracts. Prior to approving center sub-contracts the Contracting Officer is
responsible for reviewing the request and supporting data.

ETA and LAJCC’s Responses To The Draft Report

In response to our draft report, the Assistant Secretary for ETA agreed with our findings
and accepted our recommendations. ETA will instruct the contractor to provide
additional information as to the reasons the lowest bidders were not selected or costs
paid by the center increased as a result of not following the FAR. After reviewing the
contractor’s information, ETA will initiate proceedings to recover excess funds paid, as
needed. ETA and Job Corps will also strengthen their procedures to ensure all Job
Corps centers, including LAJCC, comply with FAR requirements when awarding sub­
contracts and purchase orders. This will include:

   	 ETA and Job Corps collaborating to update Job Corps’ PRH as it pertains to
      sub-contracting responsibilities and procedures.

   	 ETA updating its policies and procedures for administration of cost reimbursable
      contracts and their associated sub-contracts; with emphasis on cost and price
      analyses to ensure fair and reasonable pricing, price competition, market
      research, and sub-contractor responsibilities.

   	 ETA providing guidance and training to its contracting officers on proper
      oversight and monitoring of contractors purchasing systems, including ensuring
      contractors are held accountable for managing sub-contracts in compliance with
      the FAR.




                                                                        LAJCC Sub-Contracting
                                            11                      Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General



   	 Job Corps conducting financial reviews during center assessments and 

      monitoring visits, including reviewing sub-contracts for FAR compliance. 


   	 ETA withdrawing the approval of LAJCC’s purchasing system in accordance with
      FAR (FAR 44.305) and requiring the contractor to furnish a corrective action plan
      to qualify the system for approval.

See Appendix D for ETA’s response in its entirety.

LAJCC’s response to our draft report did not address our specific recommendations.
LAJCC stated that the center substantially complied with the FAR but fell short in
adequately documenting its compliance. LAJCC provided additional information to
support its compliance. We reviewed the information and nothing the center provided
caused us to change our conclusions. For example, LAJCC provided two more bid
rating sheets to support not selecting the lowest bidder for its food services sub­
contract. Similar to the bid rating sheet already provided (see page 6), the two bid rating
sheets provided in response to the draft report were inadequate support for not
awarding the sub-contract to the lowest bidder. One was dated April 4, 2006, prior to the
award of the sub-contract to Sodexho. However, the rating sheet showed that the
lowest bidder was rated higher than Sodexho (88 to 80) and should have been awarded
the contract. The second bid rating sheet provided in response to the draft report rated
Sodexho higher (80 to 78) but was inadequate support because it was dated
March 28, 2011. In LAJCC’s response, the center requested that it be given further
opportunity to gather evidence to help allay concerns and refute the questioned amount
of disallowed costs. As noted in ETA’s response to our draft report, ETA will provide
LAJCC another opportunity to provide supporting documentation. See Appendix E for
LAJCC’s written response. The 59 pages of attachments to LAJCC’s response were
not included in this report due to the length. However, they will be provided upon
request.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require the
Los Angeles Job Corps Center to:

   1. Update and revise center SOPs pertaining to procurement. Revisions need to
      include the required documentation and evaluator signatures and the specific
      steps to ensure all sub-contracts and expenditures between $3,000 and $25,000
      are advertised, evaluated, awarded, and costs supported as required by the
      FAR.
   2. Repay questioned costs totaling $2.5 million.
   3. Provide training as needed to ensure procurement staff are proficient on FAR
      requirements.
   4. Develop procedures for providing and documenting supervisory oversight of
      center procurement.

                                                                        LAJCC Sub-Contracting
                                            12                      Report No. 26-11-001-03-370
                                         U.S. Department of Labor – Office of Inspector General




Also, we recommend that the Assistant Secretary require the Regional Job Corps Office
and ETA contracting officer to:

   5. Strengthen procedures to ensure LAJCC complies with the FAR when awarding
      sub-contracts and purchase orders and claiming related cost. This should include
      reviewing LAJCC procurement activities for FAR compliance during on-site
      center assessments.
   6. Review all future LAJCC sub-contracts for FAR compliance prior to approval.

We appreciate the cooperation and courtesies that ETA personnel and LAJCC officials
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




ELLIOT P. LEWIS
Assistant Inspector General for Audit




                                                                      LAJCC Sub-Contracting
                                          13                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                          LAJCC Sub-Contracting
              14                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                          LAJCC Sub-Contracting
              15                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                          LAJCC Sub-Contracting
              16                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General



                                                                                    Exhibit 1
Inadequate Support for not Awarding Sub-Contracts to Lowest Bidder




Sub-Contractor                                   Total Costs Questioned Costs
Sodexho, Inc                                      $7,045,837
Selrico Services, Inc (Lowest Bidder)             $4,961,463        $2,084,374

Ayonna Taylor                                        $391,040
Shawn J. Summers, DDS (Lowest Bidder)                $279,314                 $111,726

Marie E. Mazzone, DDS                                $391,040
Shawn J. Summers, DDS (Lowest Bidder)                $279,314                 $111,726

Joseph Grillo, Ph.D                                  $186,120
M. Louise Clark, Ph.D (Lowest Bidder)                $158,625                  $27,495

Jabez Building Services                            $1,268,568
Come Land Maintenance (Lowest Bidder)              $1,259,151                   $9,417
TOTALS                                                                      $2,344,738


Sodexho, Inc
   FAR 15.303 requires an evaluation team be established for comprehensive
     evaluation of the proposals and the proposals to be evaluated solely based on
     the factors specified in the solicitation. We found no evidence on the Bid Abstract
     of names of evaluators as required by FAR.
   FAR 15.303 requires proposals to be evaluated solely based on the factors
     specified in the solicitation. Our review of the Bid Abstract found the 10
     evaluations factors to be used in rating bidders. Per review of the Bid Abstract,
     not all bidders were rated on each evaluation factor. In addition, on the Bid
     Abstract for Sodexho, other factors outside of the 10 evaluation factors
     developed by LAJCC to rate bidders were listed. Among these were, “The
     company has given money as incentive to LAJCC team who participated in past
     basketball tournaments;” and “Sodexho will invest at no cost to LAJCC air
     conditioning units and décor refinements for the dining facility which will create
     more comfort to students. In the kitchen area, they will provide a state-of-the-art
     meat slicer and restaurant quality toaster.”

Ayonna Taylor
   FAR 15.303 requires an evaluation team to be established for comprehensive
     evaluation of the proposals and the proposals to be evaluated solely based on
     the factors specified in the solicitation. We found no evidence on the Bid Abstract


                                                                       LAJCC Sub-Contracting
                                           17                      Report No. 26-11-001-03-370
                                            U.S. Department of Labor – Office of Inspector General



      of names of the evaluators or the evaluation factors used to evaluate bidders as
      required by FAR.
   	 The lowest bidder was not selected for the reason of “no indication of current
      professional liability insurance certificate,” not listed as an evaluation factor. Per
      review of the contract file, we found no evidence of steps taken by LAJCC to
      determine that the company had no professional liability insurance.

Marie E. Mazzone, DDS
   FAR 15.303 requires an evaluation team to be established for comprehensive
      evaluation of the proposals and the proposals to be evaluated solely based on
      the factors specified in the solicitation. We found no evidence on the Bid Abstract
      of the names of evaluators or evaluation factors used to evaluate bidders as
      required by FAR.
   One reason, listed on the Bid Abstract, the lowest bidder, Shawn Summers, DDS
      was eliminated because there was no indication of a current professional liability
      insurance certificate and California State license, which were not listed as
      evaluation factors. Per research by auditors of the CA Dental Board, Shawn
      Summers, DDS had a dentist license since 1991.

Joseph Grillo, Ph.D.
    FAR 15.303 requires an evaluation team be established for comprehensive
      evaluation of the proposals and the proposals to be evaluated solely based on
      the factors specified in the solicitation. We found no evidence on the Bid Abstract
      of the names of the evaluators or the evaluation factors used to evaluate bidders
      as required by FAR
    The lowest bidder was not selected for the reason of “no indication of staff
      training experience and professional liability insurance,” which were not listed as
      evaluation factors. Per review of the sub-contract file we found no evidence of
      the steps taken by LAJCC to determine that the company had no professional
      liability insurance.
   .
Jabez Building Services
    FAR 15.303 requires an evaluation team be established for comprehensive
      evaluation of the proposals. We found no evidence on the Bid Abstract of the
      names of the evaluators.
    FAR 15.303 requires an evaluation team to evaluate solely based on the factors
      specified in the solicitation. The Bid Abstract listed eight evaluation factors and
      the maximum point for each factor with a maximum total score of 105. The Bid
      Abstract only listed a total score by bidder and no individual breakdown of points
      by factor.
    The Bid Abstract stated Come Land Maintenance, the lowest bidder, was
      eliminated due to past performance. Per center interviews, Come Land
      Maintenance had the last sub-contract with LAJCC for maintenance; no
      documentation was in sub-contract file to show bad past performance at LAJCC.
    Come Land Maintenance, lowest bidder, was not rated or scored on any
      evaluation factors due to being eliminated for past performance.

                                                                         LAJCC Sub-Contracting
                                             18                      Report No. 26-11-001-03-370
                                      U.S. Department of Labor – Office of Inspector General



                                                                                Exhibit 2
Purchase Orders - Sole Source / GSA Non-GSA




Check      Check
Date       Number Payee                  Amount Comment
2/2/10     56199  Ktek Products        $11,937.59	 Inadequate support for Sole
                                                   Source
11/18/09   55608   Tre Elevator         $8,697.00 2 GSA 1 Non GSA
4/28/10    57094   Quest Diagnostic     $8,077.36 Inadequate support for Sole
                                                   Source
10/20/09   55221   Quest Diagnostic     $5,100.01 Inadequate support for Sole
                                                   Source
5/20/10    57353   Quest Diagnostic     $5,004.30 Inadequate support for Sole
                                                   Source
5/11/10    57228   Tre Elevator         $4,202.00 2 GSA 1 Non GSA
10/29/09   55319   Jabez Building       $3,734.00 Inadequate support for Sole
                                                   Source
9/22/10    58492   Ergobuyer            $3,532.96 Inadequate support for Sole
                                                   Source
1/25/10    56094   Quest Diagnostic     $3,408.76 Inadequate support for Sole
                                                   Source
12/22/09   55884   Tre Elevator         $3,302.00 2 GSA 1 Non GSA
2/24/10    56428   Tre Elevator         $3,302.00 2 GSA 1 Non GSA
8/25/10    58225   Elsevier Pub         $3,281.88 Inadequate support for Sole
                                                   Source
12/16/09   55797   Mims                 $3,150.00 2 GSA 1 Non GSA
                   Management
8/25/10    58243   Tre Elevator         $3,106.00 2 GSA 1 Non GSA
9/22/10    58494   Franklin Young       $3,028.44 2 GSA 1 Non GSA
                   TOTAL               $72,864.30




                                                                   LAJCC Sub-Contracting
                                       19                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                          LAJCC Sub-Contracting
              20                      Report No. 26-11-001-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                            LAJCC Sub-Contracting
                21                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                          LAJCC Sub-Contracting
              22                      Report No. 26-11-001-03-370
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix A
Background


Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor’s Employment and Training Administration,
Office of Job Corps, under the leadership of the National Director, supported by a
National Office staff and a field network of 6 Regional Offices of Job Corps. The Job
Corps program’s budget for FY 2010 totaled about $1.7 billion.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps Center (JCC), to become more responsible, employable, and productive
citizens. Job Corps is a residential training program for disadvantaged youth where
employability skills are developed. Its training activities and living facilities are housed
within 124 centers throughout the country.

The LAJCC, which has been in continuous operation since 1965, is located in
Downtown Los Angeles, and consists of several buildings. One of these buildings
houses the center administration and training sites. Other buildings house the student
dormitory, cafeteria, recreation, the career preparation program, academic training
classes, outreach and admissions, the career transition department, and several off
center locations house various off center training programs.

On April 5, 2006, the YWCA was awarded contract number DOLJ06SA00003 to operate
the LAJCC effective May 1, 2006. The contract was for operations of the LAJCC for the
base 2 year period May 1, 2006, through April 30, 2008, at an estimated cost of
$34,316,468. In addition, YWCA was awarded the 3 option years, for the period
May 1, 2008, through April 30, 2011, at a cost of approximately $18 million per year.
The YWCA has been the operator of the LAJCC from 1965 to the present. The LAJCC
has an authorized On-Board Strength of 735 students.




                                                                         LAJCC Sub-Contracting
                                             23                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                          LAJCC Sub-Contracting
              24                      Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objective was to answer the following question:

 Did the LAJCC award sub-contracts and claim costs in accordance with the FAR?

Scope

The audit covered sub-contracts managed and expenditures incurred by the LAJCC
from October 1, 2009, to September 30, 2010. We reviewed all 11 sub-contracts,
totaling $11.4 million, managed by LAJCC during this period. This included two
sub-contracts, totaling $77,858, that were awarded during our review period and nine
sub-contracts, totaling $11.3 million, that were awarded during prior years but had
option years exercised during our review period. For the nine, we expanded our review
to include the initial award and entire sub-contract (base and option years) in our
calculation of questioned costs. We also reviewed a statistical sample of 95
expenditures over $3,000, totaling $770,057, from a universe of 269 expenditures
totaling $1.8 million. These expenditures were generally initiated by Purchase Orders
and were separate items from the 11 sub-contracts we reviewed. The YWCA’s contract
to operate the LAJCC was not included in our review because it was awarded by ETA.
In addition, no LAJCC sub-contracts were awarded by ETA.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

Methodology

To accomplish the audit objective, we obtained an understanding of FAR, Job Corps
and LAJCC’s procurement regulations and policies. We conducted interviews with
LAJCC officials responsible for procurement and invoice payment.

To assess LAJCC’s internal controls over procurement, we interviewed key center staff;
reviewed applicable Job Corps requirements, including Job Corps Policy and
Requirements Handbook (PRH), FAR, contract provisions, and LAJCC’s standard
operating procedures (SOP); analyzed the most recent Job Corps Regional Office

                                                                       LAJCC Sub-Contracting
                                           25                      Report No. 26-11-001-03-370
                                            U.S. Department of Labor – Office of Inspector General



Center Assessment and YWCA’s most recent corporate center assessment and
performed a walk-through of the procurement process.

We identified and evaluated LAJCC, YWCA’s and Job Corps internal controls over the
monitoring and approval of sub-contracts as of March 2011.

Specifically, we obtained all supporting documents pertaining to the announcing,
evaluating, awarding, and payment of invoices of the 11 sub-contracts and 95
expenditures. We tested for completeness of the 11 sub-contracts files by conducting a
meeting with the LAJCC contracting officer and reviewing the contract files in her office.
We tested for completeness of the check register by verifying check dates that were
issued during our audit period, verified all checks were in sequential order, and for
missing checks we verified that they were voided by LAJCC.

The universe used in our audit consisted of all 11 sub-contracts. We tested all 11 sub­
contracts. For expenditures we stratified the universe into 8 strata. Each of the 8 strata
was based on the amount of the expenditures. The schedule provides details on the
strata’s, range of expenditures, the number of expenditures in each stratum, and the
expenditures selected for audit within each strata.


                                                   Number of
                                                                      Number of Checks
 Strata                 Range of Checks           Checks in the
                                                                      Selected For Audit
                                                     Strata
      1.               $21,804 to $53,939               8
                                                                                  8

      2.               $16,043 to $21,427              11
                                                                                  4
      3.               $10,197 to $15,870              17
                                                                                  6
      4.                 $7,190 to $9,804              27
                                                                                  9
      5.                 $5,681 to $7,006              37
                                                                                  12
      6.                 $4,315 to $5,670              45
                                                                                  15
      7.                 $3,706 to $4,313              57
                                                                                  19
      8.                 $3,000 to $3,703              67
                                                                                  22
 Totals                                               269
                                                                                  95




                                                                         LAJCC Sub-Contracting
                                             26                      Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




We tested 50 percent of the invoices for the 10 sub-contracts and because we found no
errors we performed no further testing. For the other contractor we tested 100 percent
of the invoices and found errors in our initial testing. The sample size was not sufficient
to be able to project the results of the sample to the universe.

For sub-contracts issued by LAJCC, we obtained the contract file and all supporting
documentation provided by LAJCC. We reviewed all 11 sub-contracts, totaling $11.4
million, managed by LAJCC during October 1, 2009, to September 30, 2010. This
included two sub-contracts, totaling $77,858, that were awarded during our review
period and nine sub-contracts, totaling $11.3 million, that were awarded during prior
years but had option years exercised during our review period. For the nine, we
expanded our review to include the initial award and the entire sub-contract (base and
option years) in our calculation of questioned costs.

For purchase orders issued by LAJCC, we obtained the check register for the audit
period. From the check register we removed checks related to payroll, checks under
$3,000, contract invoices for the 11 sub-contracts, and checks for utilities. This left 269
expenditures. We used statistical sampling to select a sample of 95 expenditures.
A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing LAJCC’s policies and procedures related to
procurement. We confirmed our understanding of these controls and procedures
through interviews and documentation review and analysis. We evaluated internal
controls used by LAJCC for reasonable assurance that the awarding of sub-contracts
and payment of invoices were done according to federal and Job Corps requirements.
Our consideration of LAJCC’s internal controls for awarding of sub-contracts and
payment of invoices would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

To achieve the assignment’s objective we relied on the computer-processed data
contained in LAJCC’s check register. We assessed the reliability of the data by
(1) performing various testing of required data elements, and (2) interviewing LAJCC
financial officials knowledgeable about the data. Based on these tests and
assessments, we concluded the data was sufficiently reliable to use in meeting the audit
objective.




                                                                        LAJCC Sub-Contracting
                                            27                      Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General



Criteria

We used the following criteria to perform this audit:

      Federal Acquisition Regulations
      Job Corps Policy and Requirements Handbook
      LAJCC Standard Operating Procedures




                                                                        LAJCC Sub-Contracting
                                            28                      Report No. 26-11-001-03-370
                                U.S. Department of Labor – Office of Inspector General



                                                                       Appendix C
Acronyms




DOL        U.S. Department of Labor

ETA        Employment and Training Administration

FAR        Federal Acquisition Register

LAJCC      Los Angeles Job Corps Center

OIG        Office of Inspector General

PRH        Policy and Requirements Handbook

SOP        Standard Operating Procedures

YWCA       Young Women’s Christian Association of Greater Los Angeles




                                                             LAJCC Sub-Contracting
                                 29                      Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                          LAJCC Sub-Contracting
              30                      Report No. 26-11-001-03-370
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                          Appendix D
ETA Response to Draft Report


     U.S. Department of Labor                    Employment and Training Administration
                                                 200 Constitution Avenue, N.W.
                                                 Washington, D.C. 20210


             II~P.   3 1 201i

          MEMORANDUM FOR:                ELLIOT P. LEWIS
                                         Assistant Inspector General


          FROM:                          JANE OATES
                                                              Xl
                                                             {jL~\'    .O,,~
                                         Assistant Secretary
                                         Employment and Training Administration

          SUBJECT:                       OIG Performance Audit of Los Angeles Job Corps Center Contract
                                         Cost Draft Report No. 26-11-001-03-370

          This memorandum responds to the subject draft audit report, dated March 25, 201 I, Performance
          Audit of Los Angeles Job Corps Center (LAJCC) Cost. We appreciate the opportunity to
          provide input to this draft audit report as well as to the recent discussions prior to its issuance.
          We note for the record that the foundation of the draft report is relative to the award of the
          subcontracts by the LAJCC prime contractor, the Young Women's Christian Association of
          Greater Los Angeles (YWCA). While the prime contractor has a responsibility to comply with
          the terms and conditions of the Federal Acquisition Regulation (FAR), the YWCA is the
          awarding contracting entity throughout the report.

         We also wish to note for the record that the subcontracts and subcontracting activities of this
         vendor were conducted during a period in which the Office of the Assistant Secretary for
         Administration and Management (OASAM) had oversight responsibility for the Office of Job
         Corps' (Job Corps) procurement activities. The Employment and Training Administration
         (ETA)'s Office of Contracts Management (OCM) assumed this oversight responsibility effective
         October 24,2010.

         Our responses to the draft report's recommendations follow:

         OIG Recommendation 1. Update and revise center SOPs pertaining to procurement. Revisions
         need to include the required documentation and evaluator signatures and the specific steps to
         ensure all subcontracts and expenditures between $3,000 and $25,000 are advertised, evaluated,
         awarded, and costs supported as required by the FAR.

         Response: Management accepts this recommendation.

         During the fourth quarter ofFY 2011, the Office of Contracts Management (OCM) will
         collaborate with Job Corps to update Chapter 5.6 of the Policy and Requirement Handbook as it
         pertains to subcontracting responsibilities and procedures. Further, OCM is currently updating
         the Job Corps Center Model Request for Proposal, the Job Corps Procurement Compendium and
         OCM Procurement Policy to determine if revisions or new policy guidance is needed regarding




                                                                                              LAJCC Sub-Contracting
                                                         31                               Report No. 26-11-001-03-370
                                              U.S. Department of Labor – Office of Inspector General




the administration of cost reimbursable contracts and their associated subcontracts. The policies
will ensure adherence to FAR 44.202 and 44.303, with emphasis on cost and price analysis to
ensure fair and reasonable pricing, price competition, market research, subcontractor
responsibility, and flow down clauses.

We consider this recommendation resolved.

OIG Recommendation 2. Repay questioned costs totaling $2.5 million.

Response: Management accepts this recommendation.

The OIG computed questioned costs based on the following findings. Our remarks are included
with each finding below.

Instances of FAR non-compliance resulting in questioned costs
FAR                     Sub-contracts over      Expenditures over                  Note
Non-compliance          $25,000 / amount of     $3,000 / amount of
                        questioned costs        questioned costs
Inadequate support for
not selecting lowest
                        5 of 11 (45%) I
                        $2,344,738*
                                                               °
                                                Sample: of95 (0%)                     a.

bidder
Improper Advertising
Improper use of GSA
                        1 of 11 (9%) I $40,258
                        1 of 11 (9%) I $37,600
                                                               °
                                                Sample: of95 (0%)
                                                Sample: 7 of95 (6.3%) I
                                                                                      b.
                                                                                      b.
approved vendor list                            $28,787
Inadequate sole source
justification
                           °
                          of 11 (0%)            Sample: 8 of95 (9.5%) I
                                                $44,077
                                                                                      b.

Totals                  7 of 11 (64%) I         Sample: 15 of 95                      b.
($2,495,460)            $2,422,596              (15.8%) I $72,864

    (a) We agree with the OIG's finding and will instruct the contractor to provide additional
        information as to the reasons the lowest qualified bidders were not selected. After
        reviewing the contractor's information, we will initiate proceedings to obtain the return
        excess funds of $2.3 million, as needed.

    (b) We agree with the OIG that the contractor did not properly advertise, solicit, or award
        subcontracts. We will instruct the contractor to provide (if any) supportable, verifiable
        information as to increased costs paid by contractor as a result of not following the FAR.
        We will then initiate proceedings to reclaim the excess funds paid by the contractor while
        recognizing the value of goods and services received. We anticipate that the cost
        recovery will be less than the $150,722 questioned by the OIG ($40,258 + $37,600 +
        $28,787 + $44,077).

We consider this recommendation resolved.

OIG Recommendation 3. Provide training as needed to ensure procurement staff is proficient on
FAR requirements.




                                                                                 LAJCC Sub-Contracting
                                               32                            Report No. 26-11-001-03-370
                                              U.S. Department of Labor – Office of Inspector General




Response: Management accepts this recommendation.

During the third quarter of FY 2011, the Head of the Contracting Activity will issue a
memorandum to all ETA contracting officers highlighting their responsibility to hold prime
contractors accountable for managing its subcontracts, in accordance with the FAR 44.202. It
will provide guidance on awarding and monitoring the subcontracts. In addition, OCM
management will add to the regular training regimen for contracting officers, providing guidance
and conducting training on the proper oversight and monitoring of contractors' purchasing
systems.

We consider this recommendation resolved.

OIG Reco11ll1ll!ndation 4. Develop procedures for providing and documenting supervisory
oversight of center procurement.

Response: Management accepts this recommendation.

During the third quarter of FY 2011, OCM will issue guidance to Job Corps National and
Regional Program Offices and all OCM staff to ensure appropriate supervisory oversight is
conducted and closely monitored. The guidance will include tools to assist contracting officers,
contract specialists and COTRsIPMs in conducting procurement oversight reviews during
monitoring trips and contract compliance assessments.

We consider this recommendation resolved.

OIG Recommendation 5. Strengthen procedures to ensure LAJCC complies with the FAR when
awarding subcontracts and purchase orders and claiming related cost. This should include
reviewing LAJCC procurement activities for FAR compliance during on-site center assessments.

Response: Management accepts this recommendation.

The San Francisco Regional Office of Job Corps will conduct financial reviews during center
compliance assessments and monitoring trips, including reviewing of subcontracts for FAR
compliance. In addition, OCM will ensure the current approval on the contractors purchasing
system issued to the YWCA is immediately withdrawn. This will require the OCM Regional
Contracting Officer to review and approve all other than fixed price subcontracts above the
simplified acquisition threshold prior to the prime contractor executing these subcontracts.

We consider this recommendation resolved.




OIG Recommendation 6. Review of future LAJCC sub-contracts for FAR compliance prior to
approval.




                                                                                LAJCC Sub-Contracting
                                               33                           Report No. 26-11-001-03-370
                                              U.S. Department of Labor – Office of Inspector General




Response: Management accepts this recommendation.

The OCM San Francisco Region Contracting Officer will withdraw the approval of the
contractor's purchasing system in accordance with FAR 44.305. The Contracting Officer shall
inform the contractor in writing, specity the deficiencies that must be corrected to quality the
system for approval, and request the contractor to furnish within 15 days a plan for
accomplishing the necessary actions. The Contracting Officer will review the corrective action
plan. This will require all cost reimbursement, time and materials, labor hour or firm fixed price
subcontracts above the simplified acquisition threshold to be submitted to the cognizant
Contracting Officer for review and approval prior to subcontract execution, in accordance with
FAR 52-244-2.

We consider this recommendation resolved.

Based on the foregoing responses, we anticipate that the audit report's recommendations will be
resolved and can be closed upon completion of the corrective actions. If you have questions
concerning this document, please contact Linda K. Heartley, in the Office of Contracts
Management at (202) 693-3404.


Cc:    T. Michael Kerr, ASAM
       Edward C. Hugler, OASAM
       Edna PriIr.l.rose, Job Corps
       AI Stewart, OASAM
       Carol Jenkins, OASAM




                                                                                  LAJCC Sub-Contracting
                                                34                            Report No. 26-11-001-03-370
                                                            U.S. Department of Labor – Office of Inspector General



                                                                                                             Appendix E
YWCA Greater Los Angeles Response to Draft Report




                     LOS ANGELES JOB CORPS CENTER
                                 1106 South Broadway, los M gele., California 90015               --
                                                                                                  ywca
                                                                                                  -"-
                                             Telephone (2 13) 7~8-O 1 35

                                      Ope... led by th e YWCA Greater L"" Mgele.
                      Fa the U. S. OeP1lrtm""t ofL,bo<. Eml>o)menl ond n llning MTOniS\""tion




                                                     March 29, 2011




        Response to OIG Discussion Draft Dale Issued March 25, 2011

        Office of Inspector General
        U.S . Department of Labor
        200 Constitution Avenue , N.W.
        Room S-5506
        Washington , D.C. 20210


                     Re :     Los Angeles Job Corps Center, Draft Assistant Inspector General's
                              Report, Report Number 26-11 -001 -03-370

               We have reviewed the discussion draft Assistant Inspector General's Report
        dated March 25, 201 1 (the "Report") regarding its audit of the Los Angeles Job Corps
        Center ("LAJCC"). Our comments to the Report, set forth below, are organized as
        follows:
                  • OverYiew
                  • Exhibit 1 Contracts
                        o Sodexho
                        o Ayonna Taylor
                        o Marie E. Mazzone, DDS
                        o Joseph Grillo , Ph.D_
                        o Jabez Building Services
                  • Other Contracts Proposed to be Disallowed
                        o Dr. Beverly Lynn Vaughan
                        o Above the Standard Procurement Group
                        o Sole Source I Non-GSA
                  • Compliance Program




                                                                                                    LAJCC Sub-Contracting
                                                              35                                Report No. 26-11-001-03-370
                                            U.S. Department of Labor – Office of Inspector General




Overview

       The Report examined the 11 contracts awarded , or for which options were
exercised, between October 1,2009 and September 30, 2010, and sampled 95
expenditures over $3,000 during the same period. Recognizing that the audit focused
on technical compliance with the Federa l Acquisition Regulations ("FAR"), we want to
emphasize, and encourage the Report to renect, that LAJCC substantially complied with
the FAR . Where LAJCC fell short is in adequately documenting its compliance with the
FAR .

        As we will illustrate below, despite shortcomings in procedural documentation ,
procedures were in fact followed and the result was the selection of vendors and
contractors that represented the best value to LAJCC and the government. LAJCC
acknowledges, that despite FAR training to date, which has consisted of one three-day
training in June, 2010 (which included FAR training among other procurement
procedures), LAJCC is not adequately trained in Federal procurement/acquisitions and
Job Corps guidelines.

        As discussed more fUlly in the last section of this letter, increased compliance
training predates the commencement of the OIG audit in November, 2010 and is
ongoing . This includes increased focus on implementing policies and procedures to
ensure full compliance with the FAR, along with extenslve training for ali personnel
involved in the procurement process.

       Below , each of the t t contracts examined by the OIG are reviewed. The basls
for our review stems from adherence to the FAR . Specifically , we note the following
FAR as critical in evaluating compliance:

      1.    Adherence to FAR 15.205: All solicitations were thorough , concise and in
accordance with FAR 15.205 Issuing Solicitations (Issued, Handled and Submitted);

        2.      Adherence to FAR 5.003: Ali solicitations - with the exception of the
solicitation for Above the Standa rd and Dr. Beverly Lynn Vaughn - were displayed
through the Government Point of Entry ("GPE") as required by the FAR 5.003-
Government Point of Entry (FedBizOpps);

       3.    Adherence to FAR Subpart 15.2: Overall, the proposal process outlined
by the FAR 15.2 was adhered to: LAJCC followed the criteria for evaluating bids,
created the FedBizOpps content and placed the advertisement, distributed the
RFP /Scope of Work, evaluated the bids and made the awards; however, we recognize
that LAJCC lacked stronger procedural documentation, and, as discussed further below,
LAJCC has taken steps to address this issue .

       4.    Adherence to FAR 15.303(b)(1 ): FAR 15.303(b)(1) states that the
Applicant shall: "Establish an evaluation team , tailored for the particular acquisition, that
includes appropriate contracting , legal , logistics, technical, and other expertise to



                                              2




                                                                              LAJCC Sub-Contracting
                                             36                           Report No. 26-11-001-03-370
                                             U.S. Department of Labor – Office of Inspector General




ensure a comprehensive evaluation of offers." For each solicitation , an evaluation team
was established by the LAJCC Contract Manager and each response was evaluated
substantially in accordance with the request for proposals. The names of the members
of the various evaluation teams are set forth below; on a going-forward basis, LAJCC
will mandate a form to be completed by the evaluation team, stating the names and
capacities of each member of the team and their role in the evaluation process.

        5.     Adherence to FAR 14.404-2: FAR 14.404-2 states that: "[alny bid that
fails to conform to the essential requirements of the invitation for bids shall be rejected".
All non-conforming bids that failed to respond in accordance with the requirements as
stated in the advertisement posted on FedBizOpps (e.g .. insurance certificates, training
experience , professional liability insurance , controlled substance registration certificate ,
ma lpractice insurance, California state license) were rejected as provided under FAR
14.404-2 ; nor was LAJCC required to review any submission considered incomplete .

       6.     Adherence to FAR Definition of Best Value; FAR 15.302 and FAR 15.308:
In those instances where the lowest bidder did not receive the award, there were other
factors to support LAJCC's determination that the higher bid represented the greatest
overall benefit and the best value for the government . Most importantly, FAR 15.302
states "The objective of source selection is to select the proposal that represents the
best value" Under the FAR Definitions, "B est value" means the expected outcome of
an acquisition that, in the Governmenl"s estimation , provides the greatest overall
benefit in response to the requirement" Also of importance is FAR 15.308, which
provides that "although the ra tionale for the selection should be documented , that
documentation need not quantify the tradeoffs that lead to the decision .'

       7.     Adherence to Program Assessment Guide (PAG) Appendix C-1:
According to the Job Corps· Program Assessment Guide, each contract was re viewed
and approved by the Job Corps Regional Office. Specifically, in accordance with PAG
Appendix C-1, Procurement Review Guide dated August, 2008, Consent to Subcontract
is required as follows:

           •   Cost Reimbursement - Required for any dollar amount;
           •   Consultants - Required for any dollar amount ;
           •   Labor Hour - Anything above $25 ,000 is re quired ;
           •   Time and Material - anything above $25,000 required;
           •   Fixed Price Supply or Service - anything above $100 ,000 required ;
           •   Health Professional Services - any dollar amount required;
           •   Other subcontracts - as specified by the contracting officer - any dollar
               amount required.

LAJCC adhered to the above guidelines in submission of subcontracts to the San
Francisco Regional Job Corps office . Attached hereto are the criteria LAJCC utilizes
and sends to the San Francisco's Job Corps Region Contracting Officer (Attachment 11.




                                               3




                                                                               LAJCC Sub-Contracting
                                              37                           Report No. 26-11-001-03-370
                                            U.S. Department of Labor – Office of Inspector General




        The following discussion addresses the OIG's assertion that the contracts
identified in Exhibit 1 (pp. lS - 16) ha ve inadequate support for not awarding the
contract to the lowes! bidder.

Exhibit 1 Contracts

Sodexho

        In the OIG Report, page 5, the OIG questions the adequacy of the support fo r
LAJCC's decision to not select the lowes! bidder. However, as the FAR clearly states
(see FAR Sections IS.302 and FAR 15.30B), the analysis for selection is not based
solely on the lowest bidder; in fact , the overriding criteria is best value . As will be
evidenced below, had LAJCC made its selection solely on lowest bid , LAJCC would not
have provided the best value for its students or the federal govemment.
        The criteria utilized by LAJCC in its selection of food vendor is based on the
criteria set forth in its Request for Proposa ls for the Food Service Operation Contract
(" RFP") dated March 16, 2006 (Attachment 2 - note -this document was not previously
attached). In the RFP, LAJCC set forth eight (8) Evaluation Categories (page 3),
including the following: (1) Technical proposa l; (2) Past periormance and experience
with client similar in size ; (3) Staff qualifications; (4) Cost justification ; (S) Financial
reso urce adequacy; (6) Health and safety plan (OSHA compliance and safety training);
(7) Satisfactory record of integrity; and (B) Business ethics.

       LAJCC 's advertisement for the food service concession and the criteria for
evaluating proposals were , as required under FAR 15.303, prepared by an evaluation
panel consisting of: (1) John Fraley , Administrative Services Director; (2) Maurice
White, Director of Social Development; and (3) Maristelly Polanco, Contracts Specialist
(the "Food Service Team"). John Fraley was the source selection authority , in
accordance with FAR IS.303. Attached hereto as Attachment 3 are two affidavits, one
from Mr. Maurice White , and the other from Maristelly Polanco, each stating that they
were part of the evaluation team for the food vendor services selection contract.

       The content for the food service contract was advertised on the FedBizOpps
website. A Pre-Bid Conference was held on March 16,2006, in which six (6)
companies participated . Ultimately, five (S) proposa ls were received . Each of these
proposals was evaluated based on the eight (8) categories stated in the solicitation (the
RFP) at paragraph 0.1 by the Food Service Team. Two of the five (S) proposals were
rejected , based on FAR 14.404(f), which states that "Any bid may be rejected if the
contracting officer determines in writing that it is unreasonable as to price.
Unreasonableness of price includes not only the total price of the bid, but the prices for
individual line items as well." As stated in the Bid Abstract, A&G Enterpri ses and
Acores Food Inc. were eliminated due to unreasonably high cost.

        Of the remaining three bidders, they were each evaluated based on the RFP
criteria stated above . Attachment 4 is the original hand-scoring conducted by the team
and compiled by Mr. Fraley on April 1, 2006. The first 7 scores are the culmination of



                                              4




                                                                              LAJCC Sub-Contracting
                                              38                          Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General




the 8 RFP criteria. The last two categories - "satisfactory record of integrity and
business ethics were combined into one category based on similarities in attributes."

       Please note that what the OIG Report originally looked to in discrediting LAJCC's
evaluation system (Bid Abstract) was NOT the RFP criteria, but rather generalized
factors that while bearing some resemblance to the criteria were not the ultimate scoring
tools used by the evaluation team .

       Using precisely correlated scoring criteria, Sodexho scored highest of the three
lowest bidders with a total number of points of 80, P&A scored 65, Selrico scored a 78.
Adhering to the RFP criteria , numbers 8 and "extra" were outside the scope of the RFP
and thus not part of the ultimate scoring and decision-making . These other criteria ,
while of interest to the LAJCC , were extraneous, and not part of the selection criteria.
For example , they decided to give points to Healthy Menultransition plan as well as
small business. Similar to relying on the Bid Abstract, these internal discussions and
eva luations, while illustrative of the thought process of the evaluation team , did not
ultimately determine the successful bidder.

        The Bid Abstract was an atter-the-fact document , for internal and discussion
purposes, and was NOT the determining methodology employed by the evaluation
team. Based on the eight (8) criteria conta ined in the RFP , Sodexho received the
highest point count; the team's procedures were in accordance with FAR 15.303 - the
pOints were based on the factors specified in the solicitation. The numbers clearly and
justifiably support LAJCC's contract award to Sodexho. We respectfully request the
OIG look to these RFP-based evaluation sheets and not the less informative Bid
Abstract.

        Beyond the unequivocal numerical analysis, some of the overarching reasons
behind the selection also included the following: two of the five proposals were
eliminated due to high cost ; of the remaining three, the proposals of Selrico Services,
Inc. and P&A Food Systems, Inc., did not address all of the requirements set forth in the
solicitation . The lowest bidder's (Selrico) bid was, based on the evaluation team's
experience , too low to provide the quality and service required . Selrico's bid was
approximately $2 11 ,000 below the second highest bid , P&A Food Systems, Inc. , and
more than $400,000 below Sodexho 's bid. In addition, as required in the RFP for the
Food Service Operation Contract, pages 2 and 4 (item 13) "low fat entrees shall be
ava ilable at every meal". Selrico did not comply with this requirement as evidenced by
the direct correspondence dated July 7, 2006 from John Fraley , AttachmentS where it
addresses the lack of "healthy choice" alternative meal choices. In the judgment of the
eva luation team , P&A Food Systems did not have the requisite experience to serve 3
meals a day, 7 days a week for approximately 400 persons, and otherwise to perform
the contract.

      The integrity of the program and the delivery of a Job Corps Policy Requirement
Ha ndbook (PRH) mandated requirement 6.7 (Food Services) would be at risk if an
unqualified, inexperienced contractor were to be awarded the work. The priority to fulfill



                                            5




                                                                           LAJCC Sub-Contracting
                                            39                         Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




the objectives of serving the trainees by awarding the best value contractor was the
goal of the Food Service Team . LAJCC's past experience with Sodexho , Sodexho's
overall score on the 8 evaluating criteria and Sodexho's prominence in the Job Corps
program nationwide, convinced the evaluation team that the contract should be
renewed with Sodexho. As an added precaution , the Food Service Team also checked
to determine if Sodexho was on the "Excluded Parties list System ", and its references
were checked through the Chamber of Commerce , California Consumer Insurance , and
the State Licensing Board . Accordingly, while LAJCC's procedures could have been
beller documented, LAJCC was in substantial compliance with the FAR.

Ms. Ayonna Taylor

        In response to the findings made in Exhibit! to the Report, in fact there was an
evaluation team for the consideration of this position (FAR 15.303). All resumes
received in response to the dental solicitation were received by Maristelly Polanco and
sent to Cheryl Bowman. Affida vits from each of these women , part of the evaluation
team , are attached hereto as Attachment 6. The dentist/applicants were evaluated by a
panel consisting of: Cheryl Bowman , Health and Wellness Administrator; Mr. John
Fraley, Administrative Services Director; and Maristelly Polanco , Contracts Specialist.
Ms. Taylor was working with LAJCC at the time of the solicitation , and her consistent
past perfonnance was a positive factor. The panel selected Dr. Taylor and sent the
recommendations to John Fra ley, Administrative Services Director. Maristelly Polanco
verified Dr. Taylor's California license, malpractice insurance , and completed the
subcontract.

        The Report, at pp. 15 and 16, states that the requirement for professional liability
insurance was not listed as an evaluation factor. In fact, the advertisement placed in
FedBizOps, at paragraph l .c) clearly states that the bidder must provide Professional
Liability Insurance and Controlled Substance Registration Certificate. The insurance
and certificate were highlighted as factors for submission. The lowest bidder did not
provide the insurance and thus was rejected. Bids which did not conform to the
advertisement and RFP were rejected, in li ne with FAR 14.404-2: "Any bid that fails to
conform to the essential requ irements of the invitation for bids sha ll be rejected. " FAR
15.302 states "The objective of source selection is to select the proposal that represents
               M
the best value FAR 15.308 , which provides that "although the rationale fo r the
                   •



selection should be documented , that documentation need not quantify the tradeoffs
that lead to the decision ." Based on these 3 FAR 's, the decision is not based on lowest
cost, but rather on best value to the students and the federal government.

Marie E. Mazzone, DDS .

        All resumes received in response to the dental solicitation were received by
Maristelly Polanco and sent to Cheryl Bowman . Affidavits from each of these women ,
part of the evaluation team , are attached hereto as Attachment 7. The
dentist/applicants were evaluated by a panel consisting of Cheryl Bowman ,
Administrative Nurse and Maristelly Polanco. Dr. Mazzone was working with LAJCC at



                                             6




                                                                            LAJCC Sub-Contracting
                                            40                          Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




the time of the solicitation, and her past performance was a positive factor. The panel
selected Dr. Marie Mazzone and sent the recommendations to John Fraley ,
Administrative Services Director. Maristelly Polanco verified Dr. Mazzone's Califomia
license, malpractice insurance, and completed the subcontract .

        The Report, at page 16, states that the requ irement for professional liability
insurance was not listed as an evaluation factor. In fact, the solicitation notice placed in
FedBizOps (#LAJCC-04-2006), at paragraph I .c) clearly states that the bidder must
provide Professional Liability Insurance and Controlled Substance Registration
Certificate. Both of the other two bidders failed to provide the required insurance
certificate and as such were rejected. Bids which did not conform to the advertisement
and RFP were rejected in line with FAR 14.404-2: "Any bid that fails to conform to the
essential requirements of the invitation for bids shall be rejected ."

        In the re vised OIG report, page 16, the OIG claims that the auditors researched
the Californ ia Dental Board and found that Shawn Summers, DDS ; had a dentist license
since 1991 . However, this was never in dispute - rather, it was the fact that Dr.
Summers did not provide a certificate of insura nce as required by the solicitation and
the FedBizOpps solicitation . This was the grounds for rejection , not the fact that they
didn't have a license.

        Also , FAR 15.302 states "The objective of source selection is to select the
proposal that represents the b est va lue" FAR 15.308, which provides that "although
the rationale for the selection should be documented , that documentation need "not"
quantify the tradeoffs that lead to the decision" Based on these three FAR 's, the
decision is not based on lowest cost , but rather on best value to the students and the
federal government.

Joseph Grillo, Ph .D.

       The proposa ls received from psychologists were eva luated by a panel consisting
of Cheryl Bowman , Health and Wellness Administrator, and Dr. Merilee Oakes, Mental
Health Consultant. Affidavits from each of these women, part of the eva luation team,
are attached hereto as Attachment 8. The evaluation team interviewed four of the
applicants responding to the solicitation and selected Dr. Grillo based on his experience
and references, and forwarded their recommendation to John Fraley , Administrative
Services Director. Maristelly Polanco verified his California license , malpractice
insurance , and completed the subcontract . As with the two professionals discussed
above, the advertised solicitation placed in FedBizOps (#01 HW-2008) clearly states that
the psychologist must have professionalliabilily insurance , and for that reason the
lowest bidder was not selected.

        The next lowest bid was Dr. Grillo , so this decision conforms with the FAR and
solicitation requirements. Bids which did not conform to the advertisement and RFP
were rejected , in line with FAR 14.404-2: "Any bid that fails to conform to the essential
requirements of the invitation for bids shall be rejected. " FAR 15.302 states "The



                                             7




                                                                             LAJCC Sub-Contracting
                                            41                           Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




objective of source selection is to select the proposal that represents the best value".
FAR 15.30B, which provides that "although the rationale for the selection should be
documented , that documentation need not quantify the tradeoffs that lead to the
decision " Based on these 3 FAR's, the decision is not based on lowest cost, but rather
on best value to the students and the federal government.

Jabez Building Services

         The evaluation factors for this contract were completed by a panel consisting of
(1) John Fraley, Administrative Services Director, (2) Maurice White, Director of Social
Development and (3) Maristelly Polanco , Contracts Specialist. This panel can be
evidenced by the attached Janitorial Proposal Evaluation Score Cards , of which there
are three , initialed by each of the members of the pane l (Attachment 9). This contract,
like all the others, was advertised in FedBizOps. Those companies responding to the
advertisement and request for proposals were interviewed by the evaluation team, and
their proposals were evaluated based on the categories stated in the solicitat ion . The
eva luation team considered contract price , past experience, warranty, references,
vendor history, delivery, product quality, hours of operation , customer service, invoicing
terms and Scope of Work Specifications. The Report stated on page 16 that eight
eva luation factors were listed in the Bid Abstract, yet a total score by bidder was listed
with no individual breakdown of points by factor. However, Attachment 9 clearly
illustrates a breakdown in accordance with the RFP by factor , disavowing this statement
in the Report. The Report addresses Come Land Maintenance , the lowest bidder, was
eliminated due to past performance and not rated or scored. LAJCC determined that
Come Land Maintenance, the incumbent, was negligent in performing their contractual
duties (past performance). Staff acknowledges that better documentation could have
occurred and training has been initiated to correct this problem. There were seven
proposals submitted ranging from $248,700 to $547,859; of the seven , four were
rejected for fa ilure to meet the RFP requirements; of the three remain ing, Jabez's
proposal was the lowest bidder. The evaluation team determined that Jabez
represented the best value for LAJCC. We respectfully request that the disallowed
amount of $9,417 be stricken .

Other Contracts Proposed to be Disallowed

Dr. Beverly Lynn Vaughan

       VVhile this contract was not advertised in FedBizOps, Dr. Vaughn was
recommended to LAJCC by the U.S. Department of Labor, San Francisco Job Corps
Region (the office that oversees LAJCC ). Dr. Vaughan has worked with the National
Office of Job Corps to assist with designing and developing a curriculum for Health
Occupations Training that aligns with the career technical education and academic
standards of the LAJCC program . At the time of the award , Dr. Vaughan was working
with the National Office of Job Corps in a variety of strategies to transform the Job
Corps Program . The original contract with Dr. Vaughan was a single source . The
project was in progress at the end of the LAJCC's contract year 4, which simply



                                             8




                                                                            LAJCC Sub-Contracting
                                            42                          Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




continued through contract year 5 utilizing Dr. Vaughan's services as recommended by
the Regional Office. Critically , the GIG should know that Dr. Vaughan was never paid
the claimed disallowed cost of $40,258 - she had family issues and requested to reduce
her hours to 20 - 25 days, resulting in a new figure of $20,247.50. LAJCC respectfully
requests that no disallowance be made as staff was not properly trained in advertising
techniques; should a disallowance nonetheless be applied , the maximum figure should
not exceed $20 ,247 .50.

Above the Standard Procurement Group

       The contract for Above the Standard Procurement Group was not advertised in
FedBizGps; however, LAJCC obtained three bids for this contract and selected the
lowest bidder, which was almost $50 per hour lower than the other two bids. The
LAJCC staff acknowledges that FAR 14.408-1 (b) was not correctly adhered to and we
respectfully request that th is amount not be disallowed and in its stead training be
recommended.

        Abo ve the Standard was contracted by the YWC A to conduct a corporate
assessment from April 26 - April 30, 2010, of which a fina l invoice was submitted and
paid on May 1, 2010. The LAJCC requested that Above the Standard provide technical
training , of which a proposal was submitted on May 12, 2010 to LAJCC; the proposa l
was accepted at the end of May , 2010 and work commenced June , 2010. The LAJCC
contract is completely separate from the YWCA; there was absolutely no overlap
between the scopes of work for the two contracts.

Sole Source / Non GSA

     Below we address only those sole source/GSA issues for which we feel the
LAJCC met the FAR criteria . They are as follows:

   1. Tre Elevator. The Report claims that TRE Elevator Company, a non-GSA
      contractor, was listed with two other GSA contractors (FAR 14.408-1 (b) and
      14.2040). In fact, there were THREE other GSA contractors considered (see
      Atlachment10) and one non-GSA contractor. LAJCC selected TRE elevator, the
      non-GSA contractor, because staff felt that this contractor was able to respond to
      emergency calls within a reasonable time period. The age and condition of the
      elevators and the heavy usage of them ca lls for frequent emergency repa irs.
      Staff determined that the safety of tra inees and staff is paramount and Tre
      Elevator's close proximity to LAJCC , combined with being the least expensive of
      the 4 quotes, justified the decision. LAJCC acknowledges that staff was not fully
      trained on FAR 14.408-1 (b) and acknowledges that further training on this FAR is
      required. However, analogous to FAR Section FAR 6.303-2, LAJCC felt that a
      different choice could ha ve resulted in serious injury to the trainees and staff. In
      total , the disputed disallowed costs for Tre Elevator are : $8 ,697, $4,202, $3,302 ,
      $3,302, $3 ,106, for a tota l of $22,609, and LAJCC respectfully requests these
      costs not be disallowed. In its stead , LAJCC offers a milestone training plan that



                                             9




                                                                            LAJCC Sub-Contracting
                                            43                          Report No. 26-11-001-03-370
                                          U.S. Department of Labor – Office of Inspector General




       has already commenced to address training issues related to FAR and
       documentation to prevent a recurrence of th is kind .

   2. Quest Diagnostic: The Report claims on Page 7 that there is inadequate
      justification for sole source with LAJCC justification based on Quest's proximity to
      LAJCC. VVhat was not elaborated on and critical to LAJCC and its tra inees is
      that LAJCC's medical clinic is in close proximity to the Quest's laboratory testing
      Because trainees lack funding and means of transportation, proximity for testing
      and medical care is a compelling criteria , as set forth in FAR 6.303-2 (an unusual
      and compelling urgency can preclude full and open competition ). Staff
      acknowledges that while the compelling nature of the selection was apparent, the
      connection between the urgency and the FAR was not well-documented. The
      amounts of disallowed costs for the selection of Quest Diagnostic are $8,077.36 ,
      $5,100.01, $5,004.30, $3,408.76, for a total of $21,590.43.

   3. Mims Management: On page 8 of the Report, it is stated that Mims Management
      was listed with two other GSA contractors. Here , LAJCC acknowledges that staff
      was not adequately trained in this specific FAR requirement (14.408-1 (b».
      LAJCC respectfully requests that this cost of $3,150 not be disallowed. In its
      stead, LAJCC offers a milestone training plan that has already commenced to
      address training issues related to FAR and documentation to prevent a
      recurrence of this kind .

   4. Franklin Young: On page 18 of the Report, it is stated that Franklin Young was
      listed with two other GSA contractors. Here, LAJCC acknowledges that staff was
      not adequately trained in this specific FAR requirement (14.408-1 (b» . LAJCC
      respectfully requests that this cost of $3,028.44 not be disallowed. In its stead,
      LAJCC offers a milestone training plan that has already commenced to address
      training issues related to FAR and documentation to prevent a recurrence of this
      kind.

Compliance Program

        The YWCA GLA and LAJCC staff, based on information received from the
Corporate Assessment conducted from April 26 through April 30, 2010, commenced
training and milestone improvement processes in procurement to address past issues.
Partici pants included the Administrative Manager, Purchasing Agent, Contract
Specialist, Accounting and Property staff. The following are milestones in the
compliance program that have been accomplished or are currently in progress:

   •   Procurement and Property Training was conducted at LAJCC's 1031 S. Hill
       Street location on the fo llowing dates: June 29 through July I , 2010; July 6
       through July 9, 2010, and July 12 through July 16, 2010. The procurement
       training faCilitator, Ted Landgraf, conducted the training. Mr. Landgraf has also
       conducted similar procurement evaluations and training for the national and
       regional offices of Job Corps. The purpose of the training was to provide



                                            10




                                                                           LAJCC Sub-Contracting
                                           44                          Report No. 26-11-001-03-370
                                   U.S. Department of Labor – Office of Inspector General




information and tools needed to ensure best procurement practices, including
systems and steps for conducting interna l procurement audits.

The Procurement Training Agenda consisted of the following:
   o Contractor Purchasing System Re view (CPSR) - Significance of the CPSR
      was addressed;
   o Other training areas covered as they relate to the CPSR included the
      importance of managerial oversight of the procurement process at the
      corporate and individual contract levels, use of price competition to ensure
      responsible expenditure of governmental funds, actions to provide fair and
      open opportunities for small business concerns, and compliance with cost
      accounting standards in awarding con tracts.
   o Self Assessing - The process and benefits of conducting internal
      procurement assessments was discussed . As a result, LAJCC conducted
      its first internal assessment in September 201 O. A total of twenty-four
      procurement files were reviewed and areas of concern were noted
      LAJCC·s Purchasing Agent responded to all concerns with corrective
      action going forward.
   o Pertinent Flow-down Clauses (government regulations a vendor or
      contractor must comply with to conduct business with a government
      funded faCility). were revie wed .
   o An overview of Program Assessment Guide (PAG) Section 5.6 addressing
      Procurement and Property Management and the Procurement Review
      Guide found in Appendix C-l of the PAG.
   o Components of a "good" procurement file were discussed along with a
      re view of Instruction 07-31 , which outlines Green procurement practice of
      purChasing environmentally preferable products and services.
   o General Services Administration (GSA), a government supply source , was
      discussed and can be used when conventional methods of securing cost
      effective vendors are challeng ing.
   o A variety of tools, including procurement related checklists, were provided
      to outline the components of a Blanket Purchase Agreement (BPA) file
      and a subcontractor file
   o A Purchasing File Documentation Checklist was provided to assist in the
      re view of purchases that are $3,000 and less, $3 ,001 to $25,000, $25,001
      to $100,000, and $100,001 to $499,999, and $500,000 or more .
   o Fund Out Clauses in BPA structures were discussed to ensure contractors
      understand that agreements are subject to the availability of funds and
      that unavailability of funds may automatically terminate an agreement with
      no liability.
   o The importance of annual vendor eva luations was addressed. The pros
      and cons of continuing a procurement relationship rest on the outcomes of
      the evaluations. Important to note is that each vendor must be rated
      utilizing the same evaluation criteria.
   o After implementing the recommended corrective actions noted in the
      Corporate Office Annual Review (COAR), the Administrative Manager



                                    11




                                                                   LAJCC Sub-Contracting
                                    45                         Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General




              contacted the Regional Office Contracting Officer requesting
              reassessment of CPSR ; temporary approval was granted on August 17,
              2010 and full approval was granted on October 27 , 2010.
          o   With guidance and approval from the Regional Office Contract Specialist,
              the Administrative Manager developed an At-a-Glance FAR Flow-down
              Clauses document for all LAJCC Vendors, which was implemented by
              August 19, 2010_ The FAR Flow-down clauses document is faxed each
              time an order is placed , and is attached to all check requisitions.
          o   The phrase "FAR Clauses Apply" appears on all Purchase Orders as of
              August 20, 2010.
          o   LAJCC's Purchase Request form was redesigned to reduce the possibility
              of blank entries, and implemented on September 20, 2010.
          o   Monthly collaborative meetings among the Procurement, Finance and
              Property departments were implemented to ensure procurement best
              practices and ongoing compliance with the FAR. An agenda is developed
              for each meeting and minutes are kept and action items are recorded .
          o   On March 14, 2011 , LAJCC hired a Procurement Manager with an
              extensive background in government contracts, government purchases,
              contracts and materials management to manage the entire procurement
              process and ensure compliance with FAR .
          o   LAJCC's procurement-related SOPs are currenlly under revision _

      This Compliance Program is an ongoing program at LAJCC to ensure improved
compliance with FAR , PRH and SOP guide lines.

       LAJCC respectfully requests that the Report not only renectthe revised facts
stated herein , but that the overa ll tone of the Report be immediately re vised to renect
the fact that LAJCC did not f1agranlly violate the FAR or any other mandated guidelines;
on the contrary, LAJCC is comm itted to providing the best services for its trainees, staff
and local community_ Producing improved methods of documenting adherence to
procedures and creating milestones for understanding all aspects of FAR , PRH and all
SOPS is part of that process.

        LAJCC also respectfully requests, given the above explanation of the ir
solicitation and evaluation processes, that the disallowed costs be eliminated and in its
stead , a commitment is entered into by LAJCC to continue its work to improve
documentation by its staff so as to avoid future audit findings that renect anything other
tha n LAJCC 's long-standing commitment to service to the community.

      Lastly, given the brief window LAJCC had to respond to this audit Report, LAJCC
respectfully continues to request the further opportunity to gather evidence to forward to
the OIG to help allay concerns and refute the quest ioned amount of disallowed costs.

                                [Signature Page Follows]




                                            12




                                                                            LAJCC Sub-Contracting
                                            46                          Report No. 26-11-001-03-370
                                       U.S. Department of Labor – Office of Inspector General




       IN WITNESS WHEREOF, the following response is submitted as of the date first
stated above.

LOS ANGELES JOB CORPS
                                                                                            l

                 Honore




                                        13




                                                                     LAJCC Sub-Contracting
                                        47                       Report No. 26-11-001-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                          LAJCC Sub-Contracting
              48                      Report No. 26-11-001-03-370
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Michael Elliott (Audit
Manager), James Turkvant (Lead Auditor), and Auditors Miguel Hughes, Stephen
Lawrence, Norma Estrada, and Alvin Edwards (Report Reviewer).




                                                                        LAJCC Sub-Contracting
                                            49                      Report No. 26-11-001-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
